               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




                  Survey of
         System Users of the Global
       Positioning System for Highway
               Contract Routes


         Management Advisory Report




Report Number NL-MA-12-001                    August 14, 2012
                                                                      August 14, 2012

                                                     Survey of System Users of the
                                                     Global Positioning System for
                                                         Highway Contract Routes

                                                       Report Number NL-MA-12-001



BACKGROUND:
This management advisory presents the      program. Additionally, only about 10
results of our survey of U.S. Postal       percent replied that they used HCR
Service field personnel with authorized    tracking data to assess supplier
access to the global positioning system    performance. Respondents further
(GPS) Highway Contract Route (HCR)         indicated that they did not receive
Tracking Module.                           adequate training or communication on
                                           their defined roles and responsibilities.
The Postal Service initiated a GPS         In addition, several respondents
program for selected contracted HCRs       remarked that the HCR Tracking Module
in November 2010 to have visibility of     could potentially be a useful tool.
mail during transport between its origin   However, due to difficulty in obtaining
and destination. The GPS program           accurate and complete data, it is not
required that selected “long-haul” HCRs    being used for ongoing monitoring and
(routes of 50 miles or more) provide       tracking and for ensuring compliance.
certain tracking information every 30
minutes while transporting mail. As of     WHAT THE OIG RECOMMENDED:
April 2012, about 960 HCRs were            Since our intent is to communicate
included in the program. Our objective     survey results to provide Postal Service
was to obtain information from Postal      management with the insights,
Service users on the effectiveness of      comments, and concerns of the
the GPS tracking data and its uses to      system’s users, we are not making
monitor HCR compliance and route           recommendations for corrective action.
performance.                               However, we have related ongoing audit
                                           work and will be issuing a report
WHAT THE OIG FOUND:                        addressing issues and opportunities for
Our survey found that about 93 percent     enhancing the GPS for HCRs.
of authorized users in the field do not
use the system to track mail, which was    Link to review the entire report
the primary intention of the GPS
August 14, 2012

MEMORANDUM FOR:            DAVID E. WILLIAMS
                           VICE PRESIDENT, NETWORK OPERATIONS

                           SUSAN M. BROWNELL
                           VICE PRESIDENT, SUPPLY MANAGEMENT

                           JOSEPH CORBETT
                           ACTING CHIEF INFORMATION OFFICER AND
                           EXECUTIVE VICE PRESIDENT




FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General
                            for Mission Operations

SUBJECT:                   Management Advisory Report – Survey of System Users of
                           the Global Positioning System for Highway Contract Routes
                           (Report Number NL-MA-12-001)

This report presents the results of our Survey of System Users of the Global Positioning
System for Highway Contract Routes (Project Number 12XG015NL001).

We appreciate the time the U.S. Postal Service system users in the field took to
complete our survey and found their comments and opinions to be of significant value. If
you have any questions or need additional information, please contact Jody Troxclair,
director, Transportation, or me at 703-248-2100.

Attachments

cc: Megan Brennan
    John T. Edgar
    Cynthia Mallonee
    Dwight Young
    Susan A. Witt
    Corporate Audit and Response Management
Survey of System Users of the                                                                                      NL-MA-12-001
 Global Positioning System for
 Highway Contract Routes

                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

User Survey Results........................................................................................................ 2

Appendix A: Additional Information ................................................................................. 6

   Background ................................................................................................................. 6

   Objective, Scope, and Methodology ............................................................................ 6

Appendix B: Survey Results for All Questions ................................................................. 8

Appendix C: Relevant Survey Comments ..................................................................... 17
Survey of System Users of the                                                                     NL-MA-12-001
 Global Positioning System for
 Highway Contract Routes



Introduction

This report presents the results of our Survey of System Users of the Global Positioning
System for Highway Contract Routes (Project Number 12XG015NL001). Our objective
was to obtain information on the effectiveness of tracking data from U.S. Postal Service
users in the field and how they use it to monitor Highway Contract Route (HCR) supplier
compliance and route performance. This self-initiated review addresses operational risk.
See Appendix A for additional information about this survey.

The Postal Service’s transportation network includes nationwide transportation between
cities and major facilities. The Postal Service typically uses privately contracted HCRs
for this purpose. Individual Postal Service areas typically control HCRs and Postal
Service transportation managers at the area and local levels are responsible for
continually reviewing these routes to balance on-time service standards with costs.
There were over 15,500 HCRs in fiscal year (FY) 2011, traveling about 1.6 billion miles
at a cost of over $3.3 billion.

The Postal Service initiated a Global Positioning System (GPS) program for selected
HCRs in November 2010 in order to have visibility of mail during transport. Under this
GPS mandate, selected “long-haul” HCRs (routes traveling 50 miles or more) were
required to provide certain GPS tracking information every 30 minutes while hauling
mail. The required GPS tracking data was limited and included the supplier’s name,
route number, trip number, location, origin or destination facility, action (status), date
and time. About 960 routes are currently included under the GPS mandate.1 The GPS
tracking data is maintained by the Postal Service in the HCR Tracking Module, is part
of the Logistics Condition Reporting System (LCRS), which we refer to as the system in
this report. A Postal Service contractor provides support services for the HCR Tracking
Module, which is located in Eagan, MN.

Conclusion

Postal Service field employees with “authorized access” to the HCR Tracking Module
indicated they have generally not used the system. However, several respondents
commented that if the system were enhanced and they were given effective guidance
and training, it would serve to be a useful tool for having visibility and in performing their
duties. Survey results indicated that 93 percent of respondents with authorized access
do not use the tracking data to monitor the movement of mail and only 10 percent
replied that HCR tracking data was used to address supplier performance. More
significant is that respondents provided additional comments indicating their
dissatisfaction with the system and problems with using the system as intended.

1
  The 963 active GPS routes as of April 24, 2012, were extracted from the HCR Tracking Module. This number
fluctuates on a month-to-month basis based on operational changes due to consolidations and adjustments,
termination of routes and peak season.
                                                         1
Survey of System Users of the                                                               NL-MA-12-001
 Global Positioning System for
 Highway Contract Routes



Appendix B presents the actual survey results with graphic illustrations of the authorized
field users in its entirety. Survey results cover system access, report usage, functionality
of GPS data, supplier performance, tracking of mail, and monitoring supplier
compliance. Additionally, Appendix C presents the authorized users’ additional relevant
comments to the HCR Tracking Module survey. These questions address reliance on
GPS data fields from the HCR Tracking Module used for non-compliance incidents,
feedback from suppliers, and additional general comments pertaining to the system
itself.

This report is intended to communicate the results of our electronic survey of the 245
authorized users of the HCR Tracking Module. Accordingly, we are not making formal
recommendations for implementation or corrective actions. However, our survey results
provide insight and user concerns. Postal Service management may want to consider
these results when deciding how to effectively manage its HCR GPS program. We have
related ongoing audit work and will be issuing a report addressing issues and
opportunities for enhancing the GPS for HCRs.

User Survey Results

In order to assess how the Postal Service is using HCR Tracking Module data and
reports, we conducted a survey of 245 field personnel with access to the HCR Tracking
Module.2 Of the 245 survey questionnaires sent to authorized users, we received 114
responses (or about 46 percent). Included among the respondents were 102 who
participated via the online survey and 12 respondents who responded via email that
their responsibilities had changed and they no longer had access to the HCR Tracking
Module.

User responses gave the HCR Tracking Module an overall negative rating (see
Appendix C for a complete list of authorized users’ additional relevant comments to the
survey). Responses in both categories shown below indicated that most individuals are
not accessing or using the system’s data and reports in day-to-day operations, or
decision-making processes, specifically in the areas of monitoring, tracking, and
compliance. The most prominent issues highlighted by the 102 online survey responses
were:

Access and Use. Survey results indicated that very few respondents are regularly
accessing the HCR Tracking Module and using its reports. Users reported they did not
use the system and those who did attempt to use it had difficulties and could not gain
access to their specific data. Responses indicated very limited training and guidance on
how to use the system.




2
    These were the identified “authorized users” for the HCR Tracking Module in the field


                                                            2
Survey of System Users of the                                                                          NL-MA-12-001
 Global Positioning System for
 Highway Contract Routes

While 51 percent stated they have, at some time, accessed the HCR Tracking Module,
only 5 percent reported accessing it daily or monthly, with the remaining 95 percent
reporting they log into the HCR Tracking Module on occasion or never (see Figure 1).

                                     Figure 1: Frequency of Access3




             Source: USPSOIG - automated summary of users’ survey results

Survey results for report use from the HCR Tracking Module indicated that 93 percent of
respondents do not use any of the HCR Tracking Module reports4 (see Figure 2).

                                           Figure 2: Report Usage




            Source: USPSOIG - automated summary of users’ survey results




3
 The source for all graphics is the OIG’s analysis of the survey results.
4
 The Postal Service approved six standard reports for enhancing the visibility of mail while in-transit and manage the
GPS program: Current Trips Report, Past Trips Report, Supplier Performance Report, Facility Performance, Key
Performance Indicators, and Compliance Report.


                                                          3
Survey of System Users of the                                                    NL-MA-12-001
 Global Positioning System for
 Highway Contract Routes

While some respondents remarked that system information could be useful in
determining estimated time of arrival (ETA) or tracking the location of a particular trailer
on a given route, there were comments expressing concerns with system access and
use.

For example:

   “The system does not work - most of my GPS routes do not show up in the system.”

   “I could never get accurate information.”

   “I have not used this tracking system beyond the first live inquiry.”

   “We were told to get access but no guidance ever came out on the system.”

   “I have not been trained nor have I accessed the system.”

Monitoring, Tracking and Compliance. The opinions from the respondents on
monitoring, tracking, and compliance was that they have not used the system to
address supplier performance and identified that the system is not reliable.

   91 percent of respondents feel this is not an effective tool in monitoring and
    negotiating with suppliers.

   90 percent of respondents indicated supplier performance is not addressed by
    reports from the HCR Tracking Module.

   93 percent of respondents reported they do not use the system to track mail, which
    was the primary intention of the program (see Figure 3).




                                                4
Survey of System Users of the                                                    NL-MA-12-001
 Global Positioning System for
 Highway Contract Routes

                             Figure 3: Used System to Track Mail




                  Source: USPSOIG - automated summary of users’ survey results

Some respondents indicated that the HCR Tracking Module could potentially be a good
tool but, due to inaccuracies, difficulty in obtaining the proper data and insufficient
training, it is not being used as it was intended. Some specific comments included:

   “Very useful tool when working properly, improvements seen in the past 2 years.”

   “This system does not bring up data for my routes. Could be that more training is in
    order.”

   “I mainly use this for an estimate for on time or late routes. I have not found the
    accuracy for all trips to be 100% reliable.”

   “All inquiries made on LCRS are returned with a message saying no records are
    found. Origin and destination selections are limited and do not include all of our
    service points. I often cannot find routes until I already know they have arrived.
    Suppliers have been frustrated with the system.”

   “The problem is I get no data when I access the system. If I was able to get data, it
    would be very useful.”




                                                   5
Survey of System Users of the                                                  NL-MA-12-001
 Global Positioning System for
 Highway Contract Routes



                             Appendix A: Additional Information

Background

The Postal Service’s transportation network includes nationwide transportation between
cities and major facilities. The Postal Service typically uses privately contracted
transportation for this purpose. Individual Postal Service areas typically control the
HCRs and Postal Service transportation managers at the area and local levels are
responsible for continually reviewing these routes to balance on-time service standards
with costs. There were over 15,500 HCRs in FY 2011, traveling about 1.6 billion miles at
a cost of over $3.3 billion.

GPS Requirement. The Postal Service initiated a GPS requirement for selected
contracted transportation routes in November 2010 to have visibility of mail while in
transit. Under this GPS mandate, selected long-haul contracted routes (defined as
routes traveling 50 miles or more) were required to provide certain GPS tracking
information every 30 minutes while hauling mail, including the location of the vehicle.
The required data covered the supplier’s name, route number, trip number, location,
origin or destination facility, action, date, and time.

The Postal Service engaged a management consulting and technology services
company to assist in supporting the software application, which it owns and manages.
This contractor provides support services for the HCR tracking system (such as making
updates, writing ad hoc reports as requested by the Postal Service, and providing Help
Desk functions to the user community (Postal Service and HCR suppliers). The HCR
Tracking Module is maintained in Eagan, MN, and the data is transmitted via cell phone
tracking solutions or traditional GPS devices directly to Eagan. The HCR Tracking
Module is within the Postal Service’s Logistics Condition Reporting System (LCRS).
About 250 individuals at headquarters and in the areas and plants have authorized
access to the HCR Tracking Module.

Objective, Scope, and Methodology

 Our objective was to obtain information from Postal Service users on the effectiveness
of the GPS tracking data and its uses to monitor HCR compliance and route
performance. To accomplish our objective, we:

   Interviewed appropriate Network Operations and Supply Management officials at
    headquarters to obtain information on the planning, implementation, and use of
    GPS for HCRs.

   Interviewed representatives from Information Technology in Eagan and the Postal
    Service’s contractor to understand how the HCR Tracking Module operates and
    confirm available reports.



                                             6
Survey of System Users of the                                                                       NL-MA-12-001
 Global Positioning System for
 Highway Contract Routes

      Identified through analysis of eAccess5 all “authorized users” of the HCR Tracking
       Module that had approved access to the HCR Tracking Module within LCRS.

      Developed and issued an electronic survey to all 245 “authorized users” in the field
       that had approved access to the HCR Tracking Module as of February 24, 2012 as
       to their involvement with using the system and reports.

Work on this management advisory was conducted from June through August 2012 in
accordance with the Council of the Inspectors General on Integrity and Efficiency,
Quality Standards for Inspection and Evaluation. On July 23, 2012, we extended an
invitation to the Postal Service management for an exit conference to discuss the
informational data contained in the report. However, management informed us that an
exit conference was not necessary.

We reviewed, analyzed, and summarized the survey results; however, we did not test
the usefulness or accuracy of the HCR Tracking data. We did not assess the reliability
of the survey data although in our judgment the data were sufficiently reliable for the
purposes of this report.




5
    eAccess is a internet portal for requesting applications and resources in the Postal Service.


                                                             7
Survey of System Users of the                                                       NL-MA-12-001
 Global Positioning System for
 Highway Contract Routes



                          Appendix B: Survey Results for All Questions

                                             Access and Use

      1. Have you accessed HCR GPS information in the HCR Tracking Module in
         LCRS?

                                                  6
                    Total Responses: 102 (100%)




                    Source: USPSOIG - automated summary of users’ survey results

      2. If you selected YES, how many months has it been since you accessed the
         system?
                     Total Responses: 56 (100%)




                     Source: USPSOIG - automated summary of users’ survey results




6
    Percentages are rounded.


                                                       8
Survey of System Users of the                                               NL-MA-12-001
 Global Positioning System for
 Highway Contract Routes


    3. How often do you log into the "HCR Tracking Module" residing in the
       LCRS?
             Total Responses: 102 (100%)




             Source: USPSOIG - automated summary of users’ survey results



    4. Do you use the provided reports contained within the HCR Tracking
       Module?
             Total Responses: 102 (100%)




             Source: USPSOIG - automated summary of users’ survey results




                                                    9
Survey of System Users of the                                                NL-MA-12-001
 Global Positioning System for
 Highway Contract Routes


Note: Questions 5-7 reflect only the responses of the seven who responded “Yes” to the
previous question regarding use of the reports contained in the HCR Tracking Module.
The first question provides a count of all reports used during the last 3 months selected
by the seven respondents.
    5. Which reports have you used within the last 3 months?

             Total Responses: 14 (100%)




             Source: USPSOIG - automated summary of users’ survey results

    6. Do you find the canned reports helpful?
            Total Responses: 7 (100%)




             Source: USPSOIG - automated summary of users’ survey results




                                                    10
Survey of System Users of the                                             NL-MA-12-001
 Global Positioning System for
 Highway Contract Routes



    7. Do they provide your facility with HCR information that is not found in other
       system reports, such as Transportation Information Management
       Evaluation System (TIMES) and Surface Visibility (SV)?
           Total Responses: 7 (100%)




           Source: USPSOIG - automated summary of users’ survey results

    8. Does the data provided in the "HCR Tracking Module" help you perform
       your job functions?
           Total Responses: 102 (100%)




           Source: USPSOIG - automated summary of users’ survey results




                                                   11
Survey of System Users of the                                             NL-MA-12-001
 Global Positioning System for
 Highway Contract Routes



  9. Do you rely, in any way, on the GPS data fields "Estimated Arrival Time" or
     "Location" contained in the Current Trips Report or "Number of trips without
     a Late Ping or No Ping” contained within the compliance report?
           Total Responses: 102 (100%)




           Source: USPSOIG - automated summary of users’ survey results




                                                   12
Survey of System Users of the                                             NL-MA-12-001
 Global Positioning System for
 Highway Contract Routes



                            Monitoring, Tracking, and Compliance

    1. Do you address supplier performance based on the information provided in
       the HCR Tracking Module?

           Total Responses: 102 (100%)




           Source: USPSOIG - automated summary of users’ survey results


    2. Has this been an effective tool in monitoring and negotiating with
       suppliers?
           Total Responses: 102 (100%)




           Source: USPSOIG - automated summary of users’ survey results




                                                   13
Survey of System Users of the                                                 NL-MA-12-001
 Global Positioning System for
 Highway Contract Routes


    3. Is the GPS data used on a regular basis to track mail in transit?
              Total Responses: 102 (100%)




               Source: USPSOIG - automated summary of users’ survey results

    4. Are incidents of non-compliance communicated to suppliers on a regular
       basis?
            Total Responses: 102 (100%)




             Source: USPSOIG - automated summary of users’ survey results




                                                    14
Survey of System Users of the                                              NL-MA-12-001
 Global Positioning System for
 Highway Contract Routes


    5. Were actions taken to improve or ensure supplier compliance?
           Total Responses: 102 (100%)




            Source: USPSOIG - automated summary of users’ survey results



    6. Have you used the GPS data, in planning a more efficient and cost effective
       HCR for certain routes or trips?
           Total Responses: 102 (100%)




           Source: USPSOIG - automated summary of users’ survey results




                                                    15
Survey of System Users of the                                                NL-MA-12-001
 Global Positioning System for
 Highway Contract Routes


    7. Have you received feedback/concerns from suppliers regarding the use of
       GPS?
              Total Responses: 102 (100%)




              Source: USPSOIG - automated summary of users’ survey results




                                                    16
Survey of System Users of the                                                                             NL-MA-12-001
 Global Positioning System for
 Highway Contract Routes



                           Appendix C: Relevant Survey Comments 7

Use and Access
We surveyed respondents to determine “Do you rely, in anyway, on the GPS data fields
"Estimated Arrival Time" or "Location" contained within Current Trips Report or "Number of
trips without a Late Ping or No Ping” in the compliance report? If yes how?” Survey
respondents provided a range of comments from their perceived benefits of the system to their
limited use or data limitations.

Comments addressing the        The information from late ping or no ping lets us know if the truck is
effectiveness of GPS           moving, or "unresponsive" to better estimate an ETA.
                               When there is bad weather, I like to look and see where the trucks are
                               so that I can notify dock operations.
                               To determine if the driver took longer to get to destination if he made
                               any detours.
                               Align staffing based on ETAs. Project clearance times.
                               Based on our location, with bridges/tunnels and traffic, it is useful to
                               have an ETA on the long hauls arriving at our facility to monitor
                               operation windows.
                               If there is an issue with a specific HCR, I will try to watch to see if there
                               is a pattern or where it is.
Comments addressing            The system does not work - most of my GPS routes do not show up in
concerns or limited use        the system.
                               I could never get accurate information.
                               I answered yes only to advise I have not used this tracking system
                               beyond the first live inquiry.
                               Would use it during the Peak Season to locate Extra Peak Season
                               trucks-at that time the system was not working, did not use it.
                               I could not complete the training because the system was not working.
                               I have never used the system since the initial training when it was not
                               working.
                               Yes...However, the last few times I accessed the system, it did not
                               work!




7
  Comments were provided by respondents for those survey questions prompting for more details. Minor edits were
made to responses for clarity and short responses (such as none or no one) and duplicate comments were deleted
for reporting purposes.


                                                         17
Survey of System Users of the                                                                           NL-MA-12-001
 Global Positioning System for
 Highway Contract Routes



Monitoring, Tracking, and Compliance
We then requested respondents tell us “Who beside yourself is responsible for reviewing the
                                        8
information in the HCR Tracking Module?”

Comments received on the        No one, I have not had a chance to look in HCR Tracking Module but I
hierarchy of users for          can see how it can help with duties, just have not started using it yet.
monitoring and tracking         Transportation department
                                Network Specialists
                                TANs Managers
                                DNO staff that has to response to a supplier
                                DN staff during peak season operations; field transportation staff.
Comments addressing             Just me. The problem is I get no data when I access the system and
concerns or limited use         try to pull the data. If I was able to get data, it would be very useful.
                                 No one else in my facility that I’m aware of.
                                 We were going to use it for Peak Mailing Season but it was not
                                 working correctly.
                                 I don't know of anyone in my office who uses this system.
                                 I have no idea who does.



Monitoring, Tracking, and Compliance
We subsequently requested the respondents to tell us “Are incidents of non-compliance
communicated to suppliers on a regular basis?”

Comments received on            Meetings with suppliers
follow up for non-              Discussions with vendors and meetings with vendors if performance
compliance conditions           did not improve
                                Trailer location
                                Supplier was notified that contract would be terminated for failure to
                                comply with the contract requirements (GPS). Supplier contacted the
                                GPS provider and the GPS team at HQ. Problem was resolved,
                                supplier is in compliance. Review concerns from the plants and bring a
                                solution.
                                I was just introduced to this during the past week. I see it as a valuable
                                tool that we will use frequently.
                                Contacting suppliers who tell me, they have problems with it.
Comments addressing             Did not use
concerns limitations on         Would use it more, if working better than what I saw during Peak
non-compliance conditions       Season
                                Have not used system
                                5500 are issued




8
 This question was one of the 17 total survey questions. Because it was designed to elicit only comments and did
not ask for a yes/no response, it was not included with the 16 questions detailed in Appendix B.


                                                         18
Survey of System Users of the                                                                      NL-MA-12-001
 Global Positioning System for
 Highway Contract Routes



Monitoring, Tracking, and Compliance
We followed up with the respondents on “Have you received feedback/concerns from suppliers
regarding the use of GPS?”
Comments received on         Suppliers are adding to monitor fuel usage
supplier concerns            Many of the local routes are being required to have the GPS system
                             and they do not travel more than 100 miles.
                             Suppliers have told me they are using GPS to track their own trucks
                             I have a couple and they like it
                             Would be a good tool to use during Peak Season with the extra
                             Christmas transportation on the road
Comments addressing          The system is not accurate, some days I see no data for trips into my
concerns or use              facilities. Unable to have a filer, and as an NDC site we need that
                             ability as the trips drop out of GPS at some point and have not arrived
                             the facility.
                             Negative they feel it’s not user friendly
                             The GPS tracking system is used for the trips to the PA MTESC only.
                             There are no records for any of these trips. The GPS tracking system
                             does not track any trips containing mail.
                             During Christmas, in the POC, I have had suppliers call in to let us
                             know of issues logging and the like.
                             Drivers having problems with the system
                             Right now, the GPS system only covers the Pacific Area we need it for
                             long hauls (other Areas). Also not every supplier shows up in the
                             system. It is hit and misses with some of the suppliers.
                             Difficult to implement




                                                       19
Survey of System Users of the                                                                        NL-MA-12-001
 Global Positioning System for
 Highway Contract Routes



Additional Survey Comments
Survey users were asked, “If they had any additional comments they wanted to provide.”

Comments on any              I have not used the system since it was implemented. When we first
additional information       received the training, there were only a hand full of suppliers that had
                             the GPS in the vehicles so, the data was limited. With more suppliers
                             using the GPS, I am sure the data is more valuable.
                             This is a new program, which will be very useful to use at the SWA
                             STC. We call contractors on a daily basis relating to late inbounds. At
                             times, the dispatcher is slow or unable to respond definitively on these
                             late trips.
                             I only have visibility of 2 contracts neither of which we are the admin
                             official. I like checking their locations when they are late.
                             I am just an occasional user during Peak. Mainly to find anything I can
                             out about late long haul trips.
                             This system should be a valuable tool as it evolves for establishing
                             realistic travel times; for tracking enroute trucks for mail processing
                             planning, and many other uses.
                             Very useful tool when working properly, improvements seen in the
                             past 2 years.
                             I currently have very limited contracts on GPS and would like to have
                             more added in an effort to utilize this tool. I think this could be a very
                             useful tool it I can get GPS on contracts that I have pinch points with.
Comments addressing          We need a more accurate tracking system like Load Track, then I
concerns or use              would use this daily versus occasionally.
                             Used it once-Christmas 2010. Did not work and had to rely on
                             suppliers GPS system for information I needed.
                             All my comments were no because I have only used the HCR tracking
                             module once during peak season two years ago. At that time, I was
                             not very impressed with the system because I could not access any
                             transportation operating in the Western Area and have not used the
                             system since.
                             As a TANS Manager, I have received no information on this system or
                             how to utilize it as part of my day-to-day activities.
                             Needs more real time for the dock operations people to use.
                             Current staffing does not allow for time to properly use the system.
                             To me, the system has seemed to be very non-useful. There was brief
                             training on the system before it started, and have seen nothing since. I
                             often cannot find routes until I already know they have arrived.
                             Suppliers have been frustrated with the system. I have asked for help
                             and have been told this is not a reliable tool for tracking. I believe we
                             are spending way too much money on a system that appears to be
                             flawed, and many people have given up trusting it.
                             I only attempted to use this system once - December 2010 as PEAK
                             Season started. I thought it would be great to track the mail flow on the
                             extra surface transportation we had added for Christmas.
                             Unfortunately, the suppliers for PEAK were not required to use the
                             new GPS. I never again tried to use the system.
                             All inquiries made on LCRS are returned with a message saying no
                             records are found. Origin and destination selections are limited and do
                             not include all of our service points.
                             We tried pulling up some reports and could not access the HCR's we
                             have in place. Most of our Phoenix Long Haul's are headquarters
                             controlled. The Origin and Destination kept showing Phoenix. A bit
                             confusing that we saw.
                             Had never been made aware of the fact that we had access to the
                             information. My responses may be a little skewed because of my
                             access to the HCR Tracking System. I requested access to be used



                                                      20
Survey of System Users of the                                                                       NL-MA-12-001
 Global Positioning System for
 Highway Contract Routes

                             during peak season when the Great Lakes Area Postal Operations
                             Center is open and manned by Area DN personnel. During that time,
                             we monitor the movement of HCRs and the tracking system would be
                             ideal. This past peak season was the first time the system was
                             available and we looked forward to it with great anticipation, but
                             unfortunately it did not perform as advertised and we abandoned its
                             use. Hopefully the bugs were worked out and it will be a great asset
                             next year - monitoring the movement of HCRs is not a task we perform
                             during the year.
                             We were told to get access but no guidance ever came out on the
                             system.
                             In too many cases, drivers using GPS tied to phones take their phones
                             with them when slip-seating which makes the data useless
                             I mainly use this for an estimate for on time or late routes. I have not
                             found the accuracy for all trips to be 100% reliable.
                             I used the system once & found it to non-user friendly & did not meet
                             my expectations.
                             This system does not bring up data for my routes. Could be that more
                             training is in order.
                             I tried using the LCRS application over a year ago without success
                             and have not attempted it since. It looks like the information provided
                             would be helpful to our expeditors who may also be unaware of its
                             functions.
                             GPS technology would be very useful if I can get the system to work.
                             Geo-fencing is a great tool that can be utilized by STC's and Plants so
                             they can be alerted to inbound trips delayed/or early and alert Admin
                             Official if drivers deviate from line of travel. GPS system could also be
                             utilized to populate Surface Visibility (SV), which should make the data
                             more accurate and reliable. GPS tech should be expanded to PVS and
                             Carrier operations so employees can be better tracked and
                             performance can be improved.




                                                      21
